<html>
<title> - COAST GUARD AND MARITIME TRANSPORTATION AUTHORIZATION ISSUES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
      COAST GUARD AND MARITIME TRANSPORTATION AUTHORIZATION ISSUES

=======================================================================

                                (113-39)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2013

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
85-300                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0b6c7b644b687e787f636e677b2568646625">[email&#160;protected]</a>  

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
TREY RADEL, Florida
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                  DUNCAN HUNTER, California, Chairman
DON YOUNG, Alaska                    JOHN GARAMENDI, California
HOWARD COBLE, North Carolina         ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        RICK LARSEN, Washington
PATRICK MEEHAN, Pennsylvania         TIMOTHY H. BISHOP, New York
STEVE SOUTHERLAND, II, Florida,      LOIS FRANKEL, Florida
  Vice Chair                         CORRINE BROWN, Florida
TOM RICE, South Carolina             JANICE HAHN, California
TREY RADEL, Florida                  NICK J. RAHALL, II, West Virginia
MARK SANFORD, South Carolina           (Ex Officio)
BILL SHUSTER, Pennsylvania (Ex 
    Officio)


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................     v

                               TESTIMONY
                                Panel 1

Hon. Andy Barr, a Representative in Congress from the State of 
  Kentucky.......................................................     2

                                Panel 2

Rear Admiral Frederick J. Kenney, Judge Advocate General, United 
  States Coast Guard                                                  4
Hon. Mario Cordero, Chairman, Federal Maritime Commission........     4
Hon. Michael H. Shapiro, Principal Deputy Assistant 
  Administrator, Office of Water, Environmental Protection Agency     4
Hon. Mark R. Rosekind, Ph.D., Board Member, National 
  Transportation Safety Board....................................     4

           PREPARED STATEMENT SUBMITTED BY MEMBER OF CONGRESS

Hon. John Garamendi, of California...............................    34

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. Andy Barr, prepared statement...............................    35
Rear Admiral Frederick J. Kenney:

    Prepared statement...........................................    37
    Answers to questions for the record from the following 
      Representatives:

        Hon. John Garamendi, of California.......................    43
        Hon. Rick Larsen, of Washington..........................    52
Hon. Mario Cordero, Chairman, Federal Maritime Commission:

    Prepared statement...........................................    55
    Answers to questions for the record from Hon. John Garamendi, 
      of California..............................................    62
Hon. Paul N. Jaenichen, prepared statement \<dagger>\............    66
Hon. Michael H. Shapiro:

    Prepared statement...........................................    71
    Answers to questions for the record from Hon. John Garamendi, 
      of California..............................................    81
Hon. Mark R. Rosekind, Ph.D.:

    Prepared statement...........................................    89
    Answers to questions for the record from the following 
      Representatives:

        Hon. Duncan Hunter, of California........................    99
        Hon. John Garamendi, of California.......................   102

                       SUBMISSIONS FOR THE RECORD

Rear Admiral Frederick J. Kenney, Judge Advocate General, United 
  States Coast Guard, responses to requests for information from 
  Hon. John Garamendi, a Representative in Congress from the 
  State of California, regarding:

    The Coast Guard's views of the proposed funding and personnel 
      levels in the draft 2014 Coast Guard Authorization Act.....    14
    The types of vessels affected by the proposed out-of-water 
      survival craft requirement.................................    17
    Whether or not a charter fishing vessel operating beyond the 
      San Francisco Bay would be required to be equipped with an 
      out-of-water survival craft by 1 April 2014................    17
Hon. John Garamendi, a Representative in Congress from the State 
  of California, request to submit the following into the record:
    Deborah A.P. Hersman, Chairman, National Transportation 
      Safety Board, letter to Hon. John Garamendi and Hon. Elijah 
      E. Cummings, a Representative in Congress from the State of 
      Maryland, October 25, 2013.................................    27
    Letter to Hon. John Garamendi from the following 
      organizations: Michelle D. Schwartz, Director of Justice 
      Programs, Alliance for Justice; John Bowman, Director of 
      Federal and State Relations, American Association for 
      Justice; Joanne Doroshow, Executive Director, Center for 
      Justice and Democracy at New York Law School; Martin 
      Hayden, Vice President, Policy and Legislation, 
      Earthjustice; Anna Aurilio, Director, Washington, DC, 
      Office, Environment America; Cynthia Sarthou, Executive 
      Director, Gulf Restoration Network; Mike Daulton, Vice 
      President, Government Relations and Director of National 
      Programs, National Audubon Society; Sarah Chasis, Director, 
      Ocean Initiative, Natural Resources Defense Council; 
      Christine Hines, Consumer and Civil Justice Counsel, Public 
      Citizen; and Athan Manuel, Director, Lands Protection 
      Program, Sierra Club; October 25, 2013.....................    30

----------
\<dagger>\ Hon. Paul N. Jaenichen, Acting Maritime Administrator, 
  Maritime Administration, was invited to testify at the hearing 
  but was unable to attend. He submitted a prepared statement, 
  and it is included.

  [GRAPHIC] [TIFF OMITTED] T5300.001
  
  [GRAPHIC] [TIFF OMITTED] T5300.002
  
  [GRAPHIC] [TIFF OMITTED] T5300.003
  
  [GRAPHIC] [TIFF OMITTED] T5300.004
  
  [GRAPHIC] [TIFF OMITTED] T5300.005
  
  [GRAPHIC] [TIFF OMITTED] T5300.006
  
  [GRAPHIC] [TIFF OMITTED] T5300.007
  


      COAST GUARD AND MARITIME TRANSPORTATION AUTHORIZATION ISSUES

                              ----------                              


                       TUESDAY, OCTOBER 29, 2013

                  House of Representatives,
                    Subcommittee on Coast Guard and
                           Maritime Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:35 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Duncan Hunter 
(Chairman of the subcommittee) presiding.
    Mr. Hunter. The subcommittee will come to order. The 
subcommittee is meeting today to examine issues impacting the 
maritime transportation sector that the subcommittee may need 
to address in legislation.
    The subcommittee has already held several hearings this 
year to review the budgets and programs of the Coast Guard, the 
Federal Maritime Commission, and the Maritime Administration.
    We have also heard from nearly 20 experts from industry, 
labor and academia with innovative ideas to improve these 
programs, reduce regulatory burdens, and grow jobs in the 
maritime sector.
    I look forward to combining these ideas with information 
presented by our witnesses today to form the basis of 
bipartisan legislation to reauthorize the Coast Guard and FMC 
and make improvements to the maritime transportation system.
    I have several goals for this legislation. Number one, 
reauthorize the activities of the Coast Guard and the FMC in a 
fiscally responsible manner that reflects the current budget 
environment while ensuring these agencies have the resources 
they need to successfully conduct their missions.
    Number two, improve the effectiveness of the Coast Guard 
missions by reducing inefficient operations and enhancing 
oversight.
    Three, place the Coast Guard's major systems acquisition 
program on a sustainable track that will ensure the delivery of 
critically needed assets in a timely and cost effective manner.
    Fourth, encourage job growth in the maritime sector by 
cutting regulatory burdens on job creation and improving 
Federal programs intended to promote and develop a strong 
maritime industry in the United States.
    I look forward to writing legislation and working with 
Ranking Member Garamendi and other members of the subcommittee 
on that effort.
    With that, I yield to Ranking Member Garamendi.
    Mr. Garamendi. Thank you, Chairman Hunter. Thank you for 
this hearing and for the witnesses, thank you for appearing and 
testifying. I will submit my opening statement for the record 
and try to make it a little shorter.
    The maritime industry is rather important. In fact, it is 
extremely important. We need to take cognizance of that and use 
this opportunity to write a comprehensive maritime policy for 
this Nation. Obviously, the Coast Guard is a big piece of it.
    As we move into that area, all that you talked about, 
Chairman Hunter, we should be doing, and probably a little 
more.
    With regard to the other parts of the authorization, we are 
going to have our hands full.
    I think if we can maybe get started and maybe complete--
although I doubt we can do it this reauthorization--we need a 
comprehensive re-look at the entire maritime industry, and we 
need to write a comprehensive policy. We also need to make it 
clear how important this is to the Nation and get about doing 
that, and that is everything from shipbuilding to the ports and 
obviously to MarAd and the FMC.
    With that, I will yield back and submit this for the 
record.
    Mr. Hunter. I thank the ranking member.
    On our first panel today, we have the Honorable Andy Barr, 
representing Kentucky's Sixth District in the House of 
Representatives.
    Congressman Barr, you are recognized for your statement, 
and it is good to see you.

TESTIMONY OF HON. ANDY BARR, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF KENTUCKY

    Mr. Barr. It is good to see you, Chairman. Thank you for 
your leadership. Good morning. I would like to thank Chairman 
Hunter, Ranking Member Garamendi, and the Subcommittee on Coast 
Guard and Maritime Transportation for holding this hearing.
    I greatly appreciate the opportunity to appear before you 
and to offer testimony on how the committee can provide a 
commonsense and practical remedy to an unnecessary hardship in 
my district.
    I offer these comments for the record in order to encourage 
the subcommittee to include language within the Coast Guard and 
maritime transportation authorization legislation or similar 
legislation that would transfer the licensing authority for the 
Valley View Ferry from Federal operating licensing to a State-
based operating license.
    In 1785, the Virginia legislature granted John Craig, a 
revolutionary war soldier, a perpetual franchise to operate the 
ferry located in what is now Valley View, Kentucky. In 
operations since that time, the Valley View Ferry is currently 
the oldest, continuous operated ferry west of the Appalachian 
Mountains, and is the third oldest ferry in the United States.
    Federal regulations changed in 2006 to establish a new 
requirement, that the Valley View Ferry must comply with all 
U.S. Coast Guard inspection and licensing regulations.
    These licensing regulations are threatening the closure of 
this historic ferry, because the Valley View Ferry is now 
required to employ operators who hold merchant mariner 
licenses, which is the highest level of operator licensing 
issued by the U.S. Coast Guard.
    This new licensing requirement is unnecessary and does not 
properly represent the unique operation of the Valley View 
Ferry. This toll free ferry does not have steering 
capabilities. Instead, it is attached to two overhead cables 
that guide the boat onto landings each side of the river, the 
Kentucky River, which is only approximately 500 feet apart.
    As you can see, there is obviously a huge difference 
between the Valley View Ferry and the towboats that operate on 
the Ohio and Mississippi Rivers or vessels that operate in the 
open seas.
    Yet, due to current Federal regulation, a person seeking to 
become an operator of the Valley View Ferry must have the same 
licensing requirements as someone who wants to operate the 
Staten Island Ferry in New York City, a towboat on the 
Mississippi, or the Belle of Louisville on the Ohio River.
    As a result of the Federal Government changing how the 
ferry is regulated and because of the overbroad nature of this 
particular regulation, the Valley View Ferry Authority which 
manages this historic ferry, has been forced to reduce 
operating hours and search all over the country to find a 
properly certified operator willing to work for less than half 
of the normal wages demanded by operators who similarly possess 
a merchant mariner's license.
    While the Valley View Ferry is currently able to operate, 
albeit in a diminished capacity and with tremendous hardship, 
there is no guarantee that the ferry's managers will continue 
to be able to find a viable operator in the future.
    Rather than rely on the current temporary fix, what the 
Valley View Ferry truly needs is the permanent solution that 
can be provided by this committee's members.
    The current regulation imposes an unnecessary burden on the 
local economy as well. The Valley View Ferry supports jobs and 
commerce in central Kentucky. Every day the Valley View Ferry 
is not in operation, it causes economic disruption for nearby 
businesses and tremendous hardship for merchants and workers 
who need to use the ferry to commute to and from work.
    With your help, I seek to remedy this one-size-fits-all 
regulation by transferring the licensing authority for the 
Valley View Ferry from Federal operating licensing to a State-
based operating license.
    My bill, H.R. 2570, the Valley View Preservation Act of 
2013, is designed to act in conjunction with Kentucky State 
law, and therefore will not take effect until the Commonwealth 
of Kentucky establishes a safety and licensing program tailored 
to the Valley View Ferry.
    While my bill is designed to prevent any lapse in Federal 
or State regulations, I would be open to working with members 
of this committee to make any changes your Members might deem 
appropriate to remedy this hardship.
    In conclusion, the situation with the Valley View Ferry is 
a classic example of overbroad regulation, impeding the ability 
of State and local governments to operate, and impeding the 
local economy.
    I am confident there is a simple and practical fix to this 
problem, and I would again like to thank Chairman Hunter, 
Ranking Member Garamendi, and committee members for affording 
me this brief opportunity to speak this morning.
    I ask for your consideration and support on this very 
important issue to central Kentucky. Thank you very much.
    Mr. Hunter. I'd like to thank Congressman Barr for his 
testimony. This is just one of those things that really shows 
this is going back to the 1700s, and you should not need the 
highest classification license to drive a cable ferry.
    We thank you for your testimony. Thank you, Congressman 
Barr. If no Members have questions, you are dismissed, and we 
will take a break while we seat our second panel.
    Mr. Barr. Thank you, Mr. Chairman.
    [Recess.]
    Mr. Hunter. Thank you, gentlemen.
    On our second panel of witnesses today are Rear Admiral 
Frederick Kenney, Judge Advocate General of the United States 
Coast Guard; the Honorable Mario Cordero, Chairman of the 
Federal Maritime Commission; the Honorable Michael Shapiro, 
Principal Deputy Assistant Administrator of the Office of Water 
at the Environmental Protection Agency; and the Honorable Mark 
Rosekind, Board Member of the National Transportation Safety 
Board.
    Rear Admiral Kenney, you are recognized for your statement, 
sir.

 TESTIMONY OF REAR ADMIRAL FREDERICK J. KENNEY, JUDGE ADVOCATE 
    GENERAL, UNITED STATES COAST GUARD; HON. MARIO CORDERO, 
CHAIRMAN, FEDERAL MARITIME COMMISSION; HON. MICHAEL H. SHAPIRO, 
  PRINCIPAL DEPUTY ASSISTANT ADMINISTRATOR, OFFICE OF WATER, 
  ENVIRONMENTAL PROTECTION AGENCY; AND HON. MARK R. ROSEKIND, 
   PH.D., BOARD MEMBER, NATIONAL TRANSPORTATION SAFETY BOARD

    Admiral Kenney. Thank you, Mr. Chairman. Good morning, 
Chairman Hunter, Ranking Member Garamendi, and distinguished 
members of the subcommittee.
    As the officer responsible for the Coast Guard's 
legislative development program, I am pleased to appear before 
you today to discuss the Coast Guard's legislative proposals.
    Mr. Chairman, I ask that my written statement be included 
in the subcommittee's record.
    The Coast Guard has transmitted 12 legislative proposals 
for the subcommittee's consideration. I refer to my written 
statement for extended remarks on four specific proposals, but 
wish to highlight the following:
    First, the Coast Guard proposal to authorize the Secretary 
to order Coast Guard reservists to active duty for a continuous 
period of not more than 120 days in the event of a disaster, 
emergency or spill of national significance, to align Coast 
Guard response authorities with those of the Department of 
Defense.
    The proposal mirrors the authority that Congress has vested 
in the Secretary of Defense except that it would cover spills 
of national significance such as the Deepwater Horizon water 
spill, as well as disasters and emergencies.
    Simply altering the existing current law limitations would 
not address the impacts that would flow from sustained or 
multiple activations that occur within a 12- to 18-month 
period. The Coast Guard proposal would address this effect.
    Next I turn your attention to the Coast Guard proposal to 
require agency heads to release the drug testing results from 
mariner applicants in the same way agency heads must report 
drug testing results for mariner employees.
    Closing the existing gap in current law may not address a 
secondary issue, whether or not an agency head may release 
results without the prior consent of a mariner applicant or 
mariner employee.
    Some agencies have claimed the current law to be ambiguous 
on this point. The Coast Guard's proposal would settle this 
issue, and I recommend the subcommittee consider adopting this 
comprehensive approach.
    Next, the Coast Guard proposal to reauthorize the Sport 
Fish Restoration and Boating Trust Fund, and ensure that monies 
derived from the Fund are administered by the Coast Guard and 
the Fish and Wildlife Service in a like manner.
    The Service had offered up elements of this proposal during 
the 111th and 112th Congresses and again now.
    I urge the subcommittee to take up this measure, and the 
Coast Guard stands ready to assist.
    Mr. Chairman, I take this opportunity to highlight one 
other Coast Guard legislative proposal, protection and fair 
treatment of seafarers. The enforcement and prosecution of 
environmental crimes under the Act to prevent pollution from 
ships has been widely successful.
    Yet, some vessel owners and operators have aggressively 
employed litigation tactics as a means of frustrating the 
Government's prosecution of these crimes, chiefly the threat to 
abandon a seafarer witness whose testimony is essential to the 
Government's case.
    When the vessel owner or operator resists paying or refuses 
to pay the seafarer witness's support, the United States is 
often left then to acquiesce to unsatisfactory conditions or to 
abandon an investigation altogether.
    Since 2007, the Coast Guard has advocated the establishment 
of a fund to pay for the necessary support of the seafarer 
witness as a means of neutralizing this litigation tactic.
    A significant feature of the Coast Guard proposal is that 
monies for such support would be derived from reimbursements 
paid by the vessel owner or operator who fails to provide the 
necessary support, not the taxpayer.
    I would appreciate the subcommittee's further consideration 
of this proposal.
    As a final matter, I draw the subcommittee's attention to 
18 U.S.C. section 39(a), which establishes the criminal 
prohibition against knowingly aiming a laser pointer at an 
aircraft, yet allows an individual to use a laser emergency 
signaling device to send an emergency distress signal.
    The physical properties of lasers can cause temporary 
blindness, also known as flash blindness, retinal bruising, and 
in extreme cases, permanent blindness, if the beam strikes the 
eyes of rescue personnel.
    For the Coast Guard, the consequences could not be more 
disastrous. The use of such a signaling device could 
temporarily disrupt a search and rescue mission, and possibly 
cause the loss of equipment and death of our personnel employed 
to effectuate the rescue.
    In fiscal year 2013, there were 54 lasing incidents 
involving Coast Guard aircraft and vessels, including one just 
10 days ago. The number of these incidents has increased every 
year since fiscal year 2007. More often than not, the incidents 
occurred with aircraft at dangerously low altitudes and 
overwhelmingly involved green laser light which most severely 
affects human vision.
    In light of the limited utility of lasers as an emergency 
signaling device and the grave harm such devices could cause, I 
recommend that the subcommittee reconsider this exception to 
the general prohibition.
    Thank you for the opportunity to testify today and for your 
continued support of the United States Coast Guard. I look 
forward to answering any questions you may have.
    Mr. Hunter. Thank you, Admiral.
    Mr. Cordero is recognized.
    Mr. Cordero. Good morning, Chairman Hunter, Ranking Member 
Garamendi, and members of the subcommittee. Thank you for the 
opportunity to address matters related to the Commission's 
authorization.
    The Commission carries out important statutorily mandated 
programs aimed at maintaining an efficient and competitive 
international ocean transportation system; protecting the 
public from unlawful, unfair, and deceptive ocean 
transportation practices; and resolving shipping disputes.
    These key FMC initiatives allow the Commission to resolve 
issues that have an impact on importers and exporters, as well 
as support one of the Commission's primary objectives--to 
increase exports and further the interests of the greater 
shipping community.
    A fair, efficient and adequate ocean transportation system 
depends on the FMC's ability to evaluate carrier and terminal 
agreements for anticompetitive impact, license ocean 
transportation intermediaries to protect the shipping public, 
and facilitate international trade.
    U.S.-foreign oceanborne commerce valued at $930 billion 
moves through our Nation's ports annually, over 99 percent of 
our trade is done on the water.
    Make no mistake--maritime policy is linked directly to 
freight policy.
    The public-private partnerships the Panel on 21st-Century 
Freight Transportation heard about at the hearing on October 10 
regarding the operations at the Port of Norfolk in Virginia and 
the Port of Baltimore in Maryland may not have been possible 
without the Shipping Act. The Commission oversees similar 
marine terminal operator agreements from nearly every port that 
moves containerized cargo; Tampa, New Orleans, Miami, New York, 
Los Angeles, Long Beach, Oakland, Houston, Philadelphia, 
Seattle, Portland, Mobile, and others.
    The President's fiscal year 2014 budget request of $25 
million represented the minimum necessary for the Commission to 
fulfill its statutory mandate.
    Continuing the Commission at fiscal year 2013 post-
sequestration funding amounts is unsustainable, after the many 
years of severely restricted funding levels the Commission has 
borne in the recent past.
    We considered all options, but in fiscal year 2013, we were 
forced to impose 6 days of furlough across the entire agency.
    Our strategic plan sets forth two goals: One, to maintain 
an efficient and competitive international ocean transportation 
system; and two, to protect the public from unfair, unlawful 
and deceptive ocean transportation practices, and resolving 
shipping disputes.
    We recognize the need to accomplish these goals through 
high-performance leadership and efficient stewardship of 
resources.
    In addition, the Commission has been closely following the 
ocean carriers' business model of providing chassis to U.S. 
shippers, and has given related agreements filings close review 
to ensure that the transition does not cause disruption or 
anticompetitive harm to shippers.
    The fiscal year 2013 post-sequestration funding level will 
have severe impacts on the shipping public, and just to name a 
few:
    Consumers may be harmed due to the Commission's lack of 
ability to monitor fully the impacts of agreements of marine 
terminal operators and liner operators, leading potentially to 
higher transportation costs, and reduced transportation 
services.
    Cruise passengers, individuals moving their household goods 
abroad, and small importers and exporters will not have access 
to the Commission's services.
    Shippers, carriers, port officials and consumers in the 
Houston region will not have the ability to contact a local FMC 
representative, as this position remains unfilled.
    Applicants for ocean freight forwarder and nonvessel 
operating common carrier licenses, typically small businesses, 
will encounter significant backlogs and waiting times.
    U.S. importers and exporters could no longer be assured 
that the ocean carriers and the NVOCCs serving their needs 
would have unrestricted access to international oceanborne 
trades, given that the Commission would no longer be able to 
carry out its statutory mandate to address the restrictive 
practices of foreign governments.
    Increasingly large global vessel alliances, such as the 
proposed P3 alliance, and their effects on costs and services 
to the U.S. importers, exporters, and shipping community would 
go unmonitored.
    Public studies and analysis, such as the Commission studies 
of the repeal of the European block exemption and possible 
freight diversion from the U.S. to Mexican and Canadian ports 
would cease.
    As in fiscal year 2013, prior to instituting agencywide 
furloughs, costs for the following, nonsalary/benefits and 
nonlease expenditures would be examined and reduced:
    Travel: Domestic and international travel associated with 
investigations, enforcement, litigation and necessary 
interaction with the industry and the public would be severely 
limited to bare levels.
    Training: Except for statutorily mandated training--equal 
employment officer, inspector general, ethics officer--training 
would be completely eliminated.
    Commercial data used to monitor, enforce and analyze 
industry impact would be severely cut, thereby eliminating the 
Commission's ability to analyze properly competitive conditions 
in foreign oceanborne trades, which may in turn harm consumers 
and create disadvantages for U.S. importers and exporters.
    Information technology services: Cuts would impact the 
maintenance of existing IT systems to a level that would put 
these systems at risk of catastrophic failure and create 
security concerns.
    The Commission is pursuing several information technology 
initiatives to comply with governing IT statutes and 
regulations, as well as examining the FMC's business functions 
that require or benefit from integration with existing data, 
technology and systems to increase the efficiency, 
productivity, and communication with the public, particularly 
in the licensing process.
    We believe enhanced information systems are essential to 
efficient identification and licensing of regulated entities 
and for information sharing with our counterparts at CBP and 
other Federal agencies.
    These IT systems would also enable our Area 
Representatives, Bureau of Enforcement and CADRS staff to have 
timely and comprehensive access to data needed to address 
practices that abuse or defraud the shipping public.
    Because technology is so essential to running the FMC, the 
Commission proposes to implement new IT solutions that will 
streamline business processes and facilitate better 
coordination and communication between the public and the 
agency.
    In fiscal year 2011, the agency, in response to 
governmentwide transformation initiatives, identified a new 
business productivity infrastructure and application platform 
that would be incorporated into its business processes model.
    The scope and speed of these technology investments will 
depend on availability of funds. These investments will lead to 
greater productivity, efficiency and transparency.
    Also due to funding constraints, our succession planning 
program has been delayed; while the FMC staff are dedicated and 
hard working, a serious drain on experience has occurred and 
our efforts to maintain a talented and knowledgeable staff have 
been derailed.
    If our funding continues at the current fiscal year 2013 
sequester level of $22.8 million or less, it will continue to 
significantly impede the Commission's ability to carry out our 
statutory duties and dispute resolution functions, which have 
grown increasingly important to the success of both the U.S. 
importers and exporters.
    The requested funds for fiscal year 2014 have a direct 
impact on the underpinnings of the economic recovery of our 
Nation's international ocean commerce transportation system.
    The Commission has carefully scrutinized its operating 
costs and will continue to use its limited resources wisely.
    The fiscal year 2014 budget request represents one of the 
lowest funding increase requests by the FMC in over a decade. 
It will not restore the Commission to previous capabilities but 
will allow the Commission to meet the responsibilities Congress 
has entrusted to the agency.
    We respectfully urge Congress to approve our full fiscal 
year 2014 $25 million budget request.
    Thank you so much.
    Mr. Hunter. Thank you, Mr. Cordero.
    Mr. Shapiro is recognized for 5 minutes.
    Mr. Shapiro. Thank you. Good morning, Chairman Hunter, 
Ranking Member Garamendi, and distinguished members of the 
subcommittee. Thank you for the opportunity to discuss EPA's 
regulation of vessel discharges, including ballast water, under 
the Clean Water Act.
    My testimony will provide an update on our regulation of 
vessel discharges under the 2013 Vessel General Permit or VGP 
that was finalized in March of this year and which will become 
effective on December 19 of this year.
    I will also provide background and an overview of the draft 
Small Vessel General Permit, the sVGP, which was published for 
comment in December of 2011 and on which the Agency has not yet 
taken final action.
    My full testimony has been submitted for the record and I 
will summarize it here.
    The Vessel General Permit regulates discharges incidental 
to the normal operation of vessels operating in a capacity as a 
means of transportation. The VGP includes general effluent 
limits applicable to a number of specific discharge streams, 
narrative water quality-based effluent limits, inspection, 
monitoring, recordkeeping and reporting requirements, and 
additional requirements applicable to certain vessel types.
    The effluent limits are primarily in the form of best 
management practices or BMPs, which were developed based on 
standard industry practices that were already being performed 
on vessels.
    The original 2008 Vessel General Permit expires on December 
19, 2013, at which time the 2013 VGP will become effective. The 
2013 VGP covers the same universe of approximately 70,000 
vessels as the current permit. We finalized the new permit in 
March of this year so that vessel owners and operators would 
have time to plan for and implement any new permit conditions.
    In developing the permit, we focused on increasing 
environmental protections based on sound science, ensuring 
vessel safety, and minimizing the burden for permittees with 
commonsense and easy to implement provisions.
    In developing ballast water limits for the VGP, we 
considered limits based on both the technology available to 
treat pollutants and limits that are protective of water 
quality as required under the Clean Water Act.
    The EPA used the results of studies conducted by the EPA's 
Science Advisory Board and the National Academy of Sciences to 
inform the ballast water discharge limits in the VGP.
    The limits are generally consistent with those contained in 
both the International Maritime Organizations Ballast Water 
Management Convention and the final Coast Guard ballast water 
rule.
    As EPA begins to implement the VGP, we will continue to 
work closely with Rear Admiral Kenney and his colleagues in the 
Coast Guard.
    In addition, the EPA has finalized in the VGP a requirement 
to continue existing ballast water exchange practices as water 
quality-based effluent limits for certain vessels entering the 
Great Lakes. The purpose of this requirement, which is not 
included in the Coast Guard's final rule, is to add another 
measure of protection against potential new invasive fresh 
water species that are transported via ballast tanks to the 
fresh water environment of the Great Lakes.
    Public Law 110-299 enacted in 2008 provides a 2-year 
moratorium on clean water permitting requirements for 
incidental discharges from commercial vessels less than 79 feet 
and commercial fishing vessels regardless of size, except for 
their ballast water discharges.
    This moratorium was subsequently extended by Congress to 
December 18, 2013, and again to December 18, 2014. The EPA 
proposed the Small Vessel General Permit, or sVGP, to provide 
the Clean Water Act authorization for commercial vessels less 
than 79 feet in length if and when the moratorium expires.
    Recognizing that these small commercial vessels are 
substantially different in how they operate, the draft Small 
Vessel General Permit is shorter and simpler than the permit 
for large vessels. The draft permit specifies BMPs for several 
broad discharge management categories that contain commonsense 
practices to reduce environmental impacts from these 
discharges, including measures to reduce risk of spreading 
invasive species.
    We are currently in the process of considering public 
comments received which will inform our development of a final 
sVGP.
    Once again, Chairman Hunter, Ranking Member Garamendi, and 
members of the subcommittee, thank you for the opportunity to 
discuss the EPA's vessel permits. I look forward to answering 
any questions that you may have.
    Mr. Hunter. Thank you, Mr. Shapiro.
    Mr. Rosekind is recognized.
    Dr. Rosekind. Chairman Hunter, Ranking Member Garamendi, 
and members of the subcommittee, thank you for the opportunity 
to testify today on behalf of the National Transportation 
Safety Board.
    Working together, the U.S. Coast Guard and the NTSB 
evaluate accidents that meet the threshold of a major marine 
casualty as set forth in our joint regulations. The NTSB 
investigates all major marine casualties, usually about 30 to 
35 per year.
    Just recently, the U.S. Coast Guard's Commandant and NTSB 
Chairman at their annual meeting in June 2013, acknowledged the 
ongoing cooperation between our agencies and the effectiveness 
of collaboration involving each other's investigative 
expertise.
    The NTSB plays a critical role in transportation safety by 
providing independent and unbiased investigations that lead to 
determining the probable cause and issuing safety 
recommendations to prevent future accidents.
    Throughout its history, the NTSB has investigated hundreds 
of marine accidents involving a broad array of safety risks. As 
a result, it has issued 2,400 recommendations to the U.S. Coast 
Guard and other entities to improve marine safety.
    Although there are several topics pertinent to the 
subcommittee included in my written statement, today, I would 
like to highlight a longstanding and important issue to the 
NTSB, the safety benefits of out-of-water survival craft, 
particularly for passengers and crewmembers aboard small 
passenger vessels.
    This issue is certainly not new to our agency. Over 40 
years ago in its first safety recommendation on this subject, 
the NTSB called for out-of-water flotation survival craft 
aboard passenger vessels to save lives and prevent injuries.
    Humans are not designed for prolonged water immersion, even 
in relatively warm water such as the Gulf of Mexico. Our body 
temperatures begin to decrease with sustained exposure. The 
NTSB saw this in its investigation of the gulf-based Trinity II 
liftboat stationed only 15 miles from shore. Ten crewmembers 
abandoned the vessel and four died after extended water 
immersion.
    The NTSB's most recent recommendation in this area is from 
its 2008 investigation of the Queen of the West engine room 
fire. Nearly 200 people were on board the vessel and many were 
elderly. If the fire had spread, the only option available to 
keep passengers out of the 40 degree water was a single six-
person rescue boat.
    The recipients of NTSB's recommendations often cite 
difficulty and cost as barriers to implementing critical safety 
improvements. There are real challenges that must be addressed 
to make transportation safer, but the bottom line is if 
operators fail to make needed changes, more people will die or 
suffer life-altering injuries.
    Today, there are so many commonsense safety improvements 
like seat belts and air bags, yet few people remember the 
initial arguments over their effectiveness or cost.
    Safety requirements have also stimulated innovation, where 
creative thinking has produced new approaches to address 
longstanding safety risks. For example, in aviation, technology 
innovations led to the invention of traffic collision avoidance 
systems and enhance ground proximity warning systems. These 
changes were hotly debated at first, but now are standard 
safety equipment in today's modern aircraft.
    It is ironic that commercial aircraft, not designed to be 
in the water but fly over it, are required to carry out-of-
water survival craft when small passenger marine vessels are 
not.
    Just as passenger planes with extended over-water 
operations must have out-of-water survival craft and other 
survival equipment for the rare safety risk associated with a 
water accident, so should all passenger vessels that traverse 
the Nation's waterways every day. This is simply common sense.
    Ranking Member Garamendi and Congressman Cummings recently 
asked the NTSB for its perspective on the U.S. Coast Guard's 
2013 report, ``Survival Craft Safety,'' regarding out-of-water 
survival craft.
    Last week, the NTSB provided specific comments on this 
report with our views and raised a number of important issues 
worthy of your consideration. I encourage you to read it.
    Although it is generally safe to travel aboard a passenger 
vessel, when something goes wrong it can be deadly. Maintaining 
the full requirement for out-of-water survival craft to keep 
people from prolonged water immersion is critical for saving 
lives and preventing injuries.
    Thank you for the opportunity to appear today. The NTSB is 
ready to work with Congress on these and other transportation 
safety issues. I am available to answer your questions.
    Mr. Hunter. Thank you, Mr. Rosekind. I am going to now 
recognize Members for questions. I am going to defer my 
questions and pass it on to Mr. LoBiondo, the former 
subcommittee chairman of this subcommittee.
    Mr. LoBiondo. Thank you, Mr. Chairman. I thank the panel 
for being here today. I have the honor of representing the 
second largest commercial seaport on the east coast by value of 
catch, but the commercial fishermen in my district are barely 
making ends meet. I think it is a story we have heard 
repeatedly.
    One of the problems they have in addition to just being 
able to catch the fish they need, the regulations by NOAA 
limiting catch limits and new operating rules by the Coast 
Guard are taking a huge toll on the industry that is already 
reeling from a very tough recession.
    The EPA is coming in to impose regulations to govern the 
discharge of such things as rain water run off from the decks 
and condensation from cabin air conditioners.
    It is really hard for me to understand, but even the amount 
of vegetable oil used to cook dinner for the crew and type of 
dish soap used to clean the frying pan will be regulated.
    I think this is really going over the top. We are going to 
put people out of business, and if that is the intention, that 
is exactly what we are going to do.
    Vessel owners that do not receive a permit from the EPA or 
maintain a log book for these discharges are subject to very 
harsh Clean Water Act criminal and civil penalties of more than 
$32,000 per day for violations, $32,000 per day.
    On the incidental rain water run off, I wonder, do you 
measure by the raindrop? How do you do that? We have been 
fighting this for a couple of years now. I hope my colleagues 
will join with me in legislation I plan to offer to address 
that situation.
    Mr. Shapiro, the current moratorium expires in 13 months. 
Unless Congress takes actions, over 135,000 vessels will need 
to comply with the EPA's permit, and when will the EPA release 
a final Small Vessel General Permit so these vessel owners can 
adequately prepare for this huge, new, damaging regulatory 
burden that is facing them?
    Mr. Shapiro. As I mentioned in my testimony, we are working 
on that Small Vessel General Permit. We intend to issue it 
early in 2014. Again, as is the case with the Vessel General 
Permit, our plan is to do that well in advance of the date the 
moratorium expires, should it not be renewed.
    Mr. LoBiondo. Excuse me for not having a lot of confidence 
in the bureaucracy to meet its deadlines, but these are real 
hard working small business people. If they knew what they were 
facing now, they would have a difficult time piecing this 
together.
    I am going to ask the chairman of the subcommittee and the 
chairman of the full committee to track this, because this has 
a real impact.
    Can you tell us what are the estimated costs of compliance 
with these VGPs and does this include compliance costs 
associated with the additional requirements added by the States 
that submitted Section 401 certifications?
    Mr. Shapiro. Clarification. Are you talking about the full 
VGP or small VGP?
    Mr. LoBiondo. The full.
    Mr. Shapiro. In the case of the full VGP, the costs range. 
Obviously, there is a huge range in size of vessels and the 
kinds of requirements, the per vessel cost in our evaluation 
ranged from about $51 to $7,000 per vessel annually. Again, 
there is about 70,000 vessels in total coverage. There is a 
broad range of vessel types and sizes, and therefore, 
requirements that apply.
    Mr. LoBiondo. What about the small?
    Mr. Shapiro. In the case of the small, our estimate was in 
a range of $17 to $98 per vessel per year. Actually, to 
complete the question you had, these estimates do not include 
the costs associated with any specific State 401 certification 
requirements, to the extent they are not consistent with EPA's 
requirements.
    Mr. LoBiondo. Can vessel owners or operators face citizen 
suits for failure to comply with 401 certifications?
    Mr. Shapiro. The short answer to that is yes, they can.
    Mr. LoBiondo. Mr. Chairman, I am really at a loss here. You 
are going to regulate rain water wash off from decks of ships. 
This is the stuff that Jay Leno and the late night shows would 
have real fun with, if it wouldn't be so consequential and so 
damaging.
    I do not know how we can be so far out of tune with the 
real world, and while all these people want to do the right 
thing for our environment, Mr. Chairman, I have to believe this 
is a terrible direction. I would hope we can find some way to 
correct this. I yield back.
    Mr. Hunter. I thank the gentleman from New Jersey. Mr. 
Garamendi is recognized for 5 minutes.
    Mr. Garamendi. Thank you. My first question goes to Admiral 
Kenney. In your testimony, you raised, I think, six issues that 
are of importance, but you did not discuss in any way the 
overall authorization.
    Is there anything in the current authorization, besides 
these six issues, that the Coast Guard would want to change?
    Admiral Kenney. Thank you for that question, Mr. Garamendi. 
Of course, we received the subcommittee's draft authorization 
bill just last Tuesday, and it is quite complex and 
multifaceted. There are various items that we would like to 
discuss further with the subcommittee. There are items that we 
fully support, that we think are welcome additions to the Coast 
Guard's cache of authorities and responsibilities.
    We look forward to continuing the conversation with respect 
to certain aspects. I can get into particulars. If you have any 
specific questions, I am happy to answer them.
    Mr. Garamendi. I have many, many questions, sir. I think it 
is frankly the responsibility of the Coast Guard to provide 
that information in an open public hearing such as this, 
recognizing that you may not have had much time, but there may 
have been ideas and thoughts, proposals, that the Coast Guard 
had before receiving the draft legislation.
    Do you have any comments on those kinds of issues? For 
example, the level of funding, that is the authorized level of 
funding for various programs?
    Admiral Kenney. Yes, sir. When we look at both the 
authorized levels of funding and the authorized level of 
personnel strength, it is clear that the dynamics between the 
President's budget, the numbers in the 2010 and 2012 Coast 
Guard Authorization Acts, and the committee's bill are very 
complex and require careful consideration by the Coast Guard in 
consultation with the administration.
    If I could take that for the record, I would be happy to 
provide you with our views on that issue. As I said, we have 
already begun the process of consulting with the 
administration. We are looking very closely at the numbers that 
are contained in the draft bill. We will have views for you, 
sir.
    [The information follows:]

        With regard to authorizations of appropriations for 
        fiscal year (FY) 2014, the authorization level 
        corresponding with the President's Fiscal Year (FY) 
        2014 Budget request would be $7,807,085,000 [Operating 
        Expenses (OE) $6,755,383,000; Acquisition, 
        Construction, and Improvement (AC&I) $909,116,000; 
        Reserve Training (RT), $109,543,000; Environmental 
        Compliance and Restoration (EC&R), $13,187,000; and 
        Research, Development, Test, and Evaluation (RDT&E) 
        $19,856,000]. Were Congress to pass a FY14 
        appropriation based on the President's request, the 
        corresponding authorization level, including funding 
        for Overseas Contingency Operations, and excluding 
        proposed rescissions, would be $8,076,085,000 [OE 
        $6,982,383,000; AC&I $951,116,000; RT $109,543,000; 
        EC&R $13,187,000; RDT&E $19,856,000].

        On the other hand, given that the Coast Guard is 
        currently operating under a continuing resolution that 
        is based on FY13 levels, the corresponding 
        authorization for the aforementioned appropriations 
        would be $8,394,251,740 [OE $6,863,640,917; AC&I 
        $1,367,045,276; RT $131,440,686; EC&R $12,460,845; 
        RDT&E $19,664,016].

        Were Congress to pass a FY14 appropriation based on the 
        FY14 House Appropriations Committee/Senate 
        Appropriations Committee marks, the corresponding 
        authorization level, assuming the higher of the two 
        marks for each appropriation, including funding for 
        Overseas Contingency Operations, and excluding proposed 
        rescissions, would be $8,451,537,000 [OE 
        $7,066,416,000; AC&I $1,229,684,000; RT $122,491,000; 
        EC&R $13,165,000; RDT&E $19,781,000].

        The Coast Guard currently estimates FY14 end strength 
        to be 40,865. However, this number could increase 
        unexpectedly due to reductions in attrition.

        With regard to authorizations of appropriations and 
        personnel end strength for FY 2015, as well as the 
        authorized levels of military strength for that period, 
        the Coast Guard notes that the President is presently 
        formulating his annual request.

        To make any recommendation independent of, and prior 
        to, the release of the President's annual request would 
        be inappropriate. The Service will be in a position to 
        make recommendations with regard to fiscal year 2015 
        after the President transmits his request.

        With regard to the authorization of appropriations and 
        personnel end strength for fiscal year 2016, as well as 
        the authorized levels of military strength for that 
        period, the Coast Guard notes that any recommendation 
        that the Service might make today cannot fully 
        anticipate the budgetary realities that the President 
        and Congress will face two years hence. The efficacy of 
        such recommendations too would be extremely limited.

    Mr. Garamendi. Thank you for that. Several times the Coast 
Guard administrators, various folks have requested my 
assistance in obtaining 14 C-27s for the Coast Guard. Do you 
want authorization for those?
    Admiral Kenney. Well, sir, as you know, we have been in 
extensive consultations with the Department of Defense, with 
the Forest Service, and internally with the Department of 
Homeland Security regarding the potential acquisition of C-27s. 
The Coast Guard is supportive. We view this as an important 
addition to our mid-range patrol aircraft capabilities.
    Mr. Garamendi. You almost sounded like you're a politician 
running for office. I think I'm not going to get a clear 
answer. We're in the business of writing law here, and we're in 
the business of authorizing what the Coast Guard can and cannot 
do. If you want the C-27s, it seems to me that this committee 
may very well want to write into your authorizations the 
authority to get them, countering the sentence that was added 
in some obscure piece of legislation by some senator, that the 
Forest Service would get them. So work with us if you want 
them.
    Let me ask a question about the survival craft. This would 
be to Mr. Rosekind. Has the NTSB commented on the Coast Guard's 
review of the survival craft, the report that the Coast Guard 
put out?
    Dr. Rosekind. Yes, we sent a letter to you and Congressman 
Cummings, reviewing the report that came out. It was not a full 
evaluation, but it does highlight eight specific areas that 
need to be addressed that question the findings from that 
report.
    Mr. Garamendi. Basically you thought that it was 
inadequate. Is that correct?
    Dr. Rosekind. We highlight it is inadequate in that there's 
insufficient data to address the questions that were posed.
    Mr. Garamendi. OK. For the Coast Guard, what vessels--what 
kind of vessels are covered by the proposed out-of-water 
survival craft issue?
    Admiral Kenney. Mr. Garamendi, it would cover a wide range 
of passenger vessels, pretty much every inspected passenger 
vessel. Of course, we've taken a close look at the NTSB's 
recommendations over time, and as you just alluded to, the 
report that we submitted in August of 2013 we believe was a 
comprehensive evaluation of the efficacy of out-of-water 
survival craft-based on data.
    As our report notes, the number of casualties that we can 
attribute to a lack of out-of-water survival craft is actually 
quite low, and while certainly we work very closely with the 
NTSB on a daily basis and we are both committed to improving 
safety, with the Coast Guard's additional responsibilities, to 
consider costs and benefits in terms of any particular 
regulatory program we might initiate to improve safety----
    Mr. Garamendi. So if I were to get on a chartered fishing 
boat in San Francisco Bay to fish for salmon outside the Golden 
Gate, would that charter boat that holds 10 to 20 customers 
have out-of-water survival craft under the current regulations?
    Admiral Kenney. Under the current regulations, I'd have to 
get back to you on that, sir. I would imagine it would have to 
have some capability. But with respect to the voyage that you 
describe, the Coast Guard believes that with the current suite 
of authorities that we have to regulate inspected vessels--and 
the vessel you just described coming out of San Francisco Bay 
would be an inspected vessel, it would be a T-boat----
    Mr. Garamendi. So the answer is going to be for the record?
    Admiral Kenney. No, sir.
    Mr. Garamendi. The answer to my question will be for the 
record?
    Admiral Kenney. No, sir. I can continue. With the 
authorities that we have, the officer in charge of marine 
inspection has the ability to make a determination based on the 
vessel itself, based on the route, and based on the particular 
voyage that it's taking. The OCMI has the flexibility to 
require the addition of out-of-water survival craft. I would 
think--I don't know what the answer is for that particular 
voyage, but if I were the sector commander, I would expect that 
we would ask for out-of-water survival craft in the cold waters 
of northern California.
    Mr. Garamendi. Could you please give me a specific answer 
to my question. If I've been offered a charter ride outside the 
Golden Gate to go for salmon fishing, given the water 
temperature, et cetera, would that vessel have an out-of-water 
survival craft on April 1st of next year?
    Admiral Kenney. I would imagine that it would, sir.
    Mr. Garamendi. I'd like to know.
    Admiral Kenney. I----
    Mr. Garamendi. OK? The proposed regulations, what you're 
basically saying is there's a considerable flexibility in the 
proposal for out-of-water safety craft. Is that correct?
    Admiral Kenney. What I'm saying, sir, is our current 
authorities, regardless of the current proposal with respect to 
mandating out-of-water survival craft, our current suite of 
authorities contained in 46 U.S. Code, Subtitle 2 give us the 
flexibility to require out-of-water survival craft where the 
officer in charge of marine inspection feels it's appropriate.
    Mr. Garamendi. So you can do it?
    Admiral Kenney. Yes, sir.
    [Additional information follows:]

        Currently, the following types of vessels are required 
        to carry out-of-water survival craft under all 
        circumstances:

        (a) For small passenger vessels certificated under 46 
        CFR Subchapter T, all vessels without subdivision 
        operating in cold water on Oceans routes; all wood-
        hulled vessels without subdivision operating in cold 
        water on Coastwise and Limited Coastwise routes more 
        than 3 miles from shore; and all wood-hulled vessels on 
        Great Lakes routes more than 1 mile from shore.

        (b) For small passenger vessels certificated under 46 
        CFR Subchapter K (i.e., with more than 150 passengers, 
        or with overnight accommodations for more than 49 
        passengers), all vessels on cold water Oceans routes 
        (must carry inflatable liferafts); all vessels with 
        overnight accommodations on warm water Oceans routes, 
        Coastwise or Limited Coastwise routes more than 3 miles 
        from shore; all vessels on Great Lakes or Lakes, Bays 
        and Sounds routes more than 1 mile from shore; and all 
        vessels without overnight accommodations on cold water 
        Coastwise routes more than 3 miles from shore.

        All vessels not specifically listed above could be 
        affected by the new requirement to carry out-of-water 
        survival craft, depending on what they currently 
        actually carry.

        The second question relates to survival craft on a 
        charter vessel with 10-20 passengers fishing for salmon 
        outside the Golden Gate on 1 April 2014. Such a vessel 
        presumably would be under 100 gross tons, and as such 
        inspected and certificated under 46 CFR Subchapter T 
        (Small Passenger Vessels).

        The water in the Pacific outside the Golden Gate is 
        cold all year with the exception of September (per 
        Coast Guard Navigation and Vessel Inspection Circular 
        (NVIC) 7-91), so the ``cold water'' requirements in 46 
        CFR 180.200(c) apply.

        Within 20 miles of shore, the vessel would be required 
        to carry out-of-water survival craft (inflatable 
        buoyant apparatus) if it is a wooden vessel without 
        subdivision. Other vessels can carry 100 percent life 
        floats.

        If the vessel goes beyond 20 miles (i.e., Oceans 
        route), it would be required to carry out-of-water 
        survival craft (inflatable buoyant apparatus) if it is 
        without subdivision. Otherwise it can carry 100 percent 
        life floats.

        Notwithstanding the above minimum requirements, the 
        Officer in Charge, Marine Inspection may require any 
        vessel to carry additional lifesaving equipment if the 
        OCMI determines that the conditions of the voyage 
        render the requirements in the regulations inadequate.

    Mr. Garamendi. Under the current law. And you do listen to 
the NTSB or at least take their counsel into consideration?
    Admiral Kenney. Always, sir.
    Mr. Garamendi. Always. One more question if I might, Mr. 
Chairman, and this has to do with the--I guess Mr. Cordero. 
What's this about the major shipping lines--Maersk, CMA-CGM, 
and the Mediterranean Shipping Company--forming some sort of 
pact?
    Mr. Cordero. Yes, thank you, Congressman.
    Mr. Garamendi. And what effect does that have on shipping, 
the cost of shipping, et cetera?
    Mr. Cordero. What you've alluded to is an alliance known as 
the P3 alliance. And that alliance essentially is a vessel 
sharing agreement. Given that, that's within the specific 
purview of the FMC.
    As to the question, what is involved and its impacts, I 
will represent to the subcommittee at this point that we will 
thoroughly report on that, and the reason is because that 
agreement has just been filed at the FMC, and our staff is, as 
we're speaking, currently reviewing that agreement and 
addressing the questions with regard to potential 
anticompetitive impacts or costs that may be impacted, 
including with regard to port of coverage and how it impacts 
terminal operators, port authorities. Essentially, they're 
going to be asking all the appropriate questions on review of 
the agreement.
    Mr. Garamendi. So if you have the budget, you're going to 
have a summit on this?
    Mr. Cordero. With regard to the summit, Congressman, I 
think there is a question with regard to this particular 
alliance. It is not unprecedented in terms of an alliance by 
carriers for a vessel sharing agreement. What is unprecedented 
about this particular alliance is the large scope--the three 
largest carriers in the world coming together in this proposed 
vessel sharing agreement. In relation to the summit----
    Mr. Garamendi. Do you know the details of the agreement? 
Would you have the authority to find out the details of the 
agreement?
    Mr. Cordero. We will know the details. The agreement has 
just been filed, Congressman, Thursday, I believe, of last 
week, and again, our staff right now, as we're speaking, 
they're reviewing that agreement, and they will be reporting to 
the Commission as to their findings and observation, and we 
will, of course, have further details as to the agreement 
itself.
    Mr. Garamendi. Would it be fair to say that you have 
concerns about the competitiveness or the anticompetitiveness 
of the agreement?
    Mr. Cordero. Well, I would definitely represent to the 
subcommittee that we're going to look to those concerns. 
There's a number of stakeholders that already have indicated 
their concerns in the shipping community, so of course the FMC 
and our staff will be looking to address those concerns.
    Mr. Garamendi. I thank you. Mr. Chairman, thank you very 
much. I yield back.
    Mr. Hunter. Thank the ranking member.
    Admiral, I've got a quick question for you. Current law 
gives the Service Secretary--in the case of the Coast Guard, 
the Secretary of the Department of Homeland Security--the 
authority to determine the fitness to serve of members of that 
Secretary's Service. However, current law limits that authority 
with respect to flag officers.
    Current law prohibits the service--the Secretary from 
retiring a flag officer for disability without a review of that 
flag officer's case by medical personnel and approval by the 
Sec Def. Does the Flag Officer Corps of the Coast Guard vesting 
final authority for flag officer disability requirement 
decisions with the Secretary of Homeland when the Coast Guard 
is operating in the Department of Homeland Security?
    Admiral Kenney. Mr. Chairman, thank you for that question, 
and thank you for highlighting what is somewhat of a unique 
issue for the Coast Guard in that the authority of the Service 
Secretary and the Cabinet Secretary is vested in one person, 
namely the Secretary of Homeland Security.
    What you're asking us, I believe, is to make a choice 
between having an additional layer of appeal that is enjoyed 
over in DOD where it would go to the Service Secretary and then 
the Sec Def, as opposed to potentially streamlining the process 
that the Coast Guard currently has where it goes to the 
Secretary of Homeland Security and then to the Secretary of 
Defense.
    And after evaluating the two different systems and look--
balancing the need for someone to potentially have an appeal 
right as opposed to streamlining the process, it's the Coast 
Guard Flag Corps' preference that we have the final decision 
authority rest with the Secretary of Homeland Security for 
timeliness and efficiency.
    The incidents of aggrieved flag officers, we're unable to 
find any in recent history, and we don't feel that that appeal 
ability is outweighed by the desire to have the system move 
more effectively and efficiently. Thank you, sir.
    Mr. Hunter. Thanks, Admiral.
    Mr. Cordero, when it comes to IT systems--you talked about 
that a little bit--I think what we're going to do here is have 
a little bit of permanent oversight on anybody getting any new 
IT systems, because whether it's DOD or Homeland Security, it 
seems like those always go over budget, they always go over 
time, and you end up getting an inferior product for your 
money.
    So we encourage you to do that. We just want to do it the 
right way, and that's because you can't make up for it in the 
long run. I was looking at your testimony, too. You said--a lot 
of trouble with your employees in 2013--fiscal year 2013 due to 
sequester and due--you had a--you said you had 6 furlough days 
for all the employees?
    Mr. Cordero. That's correct, Chairman.
    Mr. Hunter. And I think we're authorizing at the sequester 
number, which is about, what, $3 or $4 million less than your--
than the $25 million authorized by the President?
    Mr. Cordero. As I understand that number, the proposed 
authorization is $23 million, but in terms of what we're 
operating now is $22.8 million, and what I've referenced in my 
statement is $25 million. And that's just to keep us at a 
sustainable level.
    Mr. Hunter. Thank you, Mr. Cordero.
    Gentlemen--Mr. Shapiro and Mr. Rosekind, it seems like you 
guys are out of things to do, so you need to pile on more and 
more stuff and try to find ways that you can be relevant. If 
you're looking at Florida where the water is 80 degrees or in 
the South Pacific where the water is 80 degrees and you're 
talking about, in this case, Mr. Rosekind specifically, the 
out-of-water survival crafts, why not let the Coast Guard 
determine what types of ships have to have what where?
    Dr. Rosekind. Using the Coast Guard's own report to 
determine how they would apply those kinds of rules shows that 
they don't have the data to determine that.
    Mr. Hunter. They have the data that says how cold the water 
is, and if the water's not very cold, then you can be in it 
longer, and if it's cold, then you can't.
    Dr. Rosekind. The Coast Guard has a risk management 
approach to deal with many of the different variables, 
including vessel structure, the temperature of the ocean, et 
cetera. The problem is there are no specific formulas or data 
that show that those are effective. NTSB investigations have 
found that the requirement for all passenger vessels to have 
out-of-water survival craft will save lives and prevent 
injuries.
    Mr. Hunter. I would go back to the ranking member's 
question. I would guess if you're in San Francisco, then you 
should have an out-of-water survival craft, because it's cold, 
and you have great white sharks there, too. It's not as much 
fun to surf there as in San Diego. But if you're in San Diego, 
you probably don't need the same level of survival crafts.
    What I don't understand is why isn't the Coast Guard 
considered the preeminent expert on what they need when they're 
the ones that are out there doing it every day. They're the 
ones that see the bodies, see the people, and they do, I think, 
have the numbers on how many people they rescue, how long those 
people were in the water for, and how they were able to stay 
alive, right?
    Dr. Rosekind. The NTSB has investigated accidents in which 
those holes, those vulnerabilities, have become apparent. For 
example, the report does not adequately address the 
vulnerabilities of disabled and elderly passengers.
    Mr. Hunter. So here's my question, though. You have records 
of people getting hypothermia in 85-degree water?
    Dr. Rosekind. Not to my knowledge in 85-degree water.
    Mr. Hunter. OK. So if you're operating in 85-degree water, 
you probably don't need an out-of-water survival craft, right?
    Dr. Rosekind. Survivability depends on more than just the 
water temperature. Determining which vessels need out-of-water 
survival craft using risk management requires data. The Coast 
Guard's records and its report do not have sufficient data to 
repeal the statutory requirement for out-of-water survival 
craft.
    Mr. Hunter. Thank you.
    Ms. Hahn recognized, if you're ready.
    Ms. Hahn. I was born ready. Thank you, Mr. Chairman.
    This is--I'm going to direct this to the Honorable Cordero, 
and you and I have talked a lot about this, but sequestration 
certainly has had a drastic impact on all of our Government 
agencies, and smaller agencies are much more sensitive to any 
funding reductions since, really, every dollar counts.
    So the President has requested that the FMC receive $25 
million next year, but there have been some suggestions that 
the Commission could continue to still operate effectively even 
if it was funded to levels as low as $22 or $23 million, 
potentially putting even larger strain on your agency and 
inhibiting the Commission's mission of regulating the U.S. 
international maritime transportation system.
    It seems easy around here sometimes to defund agencies like 
yours, because, frankly, I think a lot of folks aren't exactly 
clear on what FMC's mission really is as opposed to, for 
instance, the Coast Guard. But why don't you tell this 
committee how the current sequestration levels have impacted 
the allocated 126 employees.
    For an agency of only 119 people presently, what would 
funding at $23 million for the next 4 years mean to your 
agency? How would this affect your ability to achieve your 
mission? You might want to retell us what exactly your mission 
is, and how would it impact the current IT infrastructure?
    And maybe even staff morale, I think, is something that we 
should pay attention to, because during this time, I think all 
of staff in all of our agencies and departments certainly have 
felt less than appreciated probably during some of these budget 
cuts. So I don't know if you got all those four questions.
    Mr. Cordero. Yes, Congresswoman.
    Ms. Hahn. OK.
    Mr. Cordero. I appreciate your questions, and you've 
covered a lot of areas and I'm glad to have the opportunity to 
address those questions. And let me just say that in my 
statement I referenced that the maritime industry is part of a 
freight policy.
    I will say the work of this subcommittee and Chairman 
Shuster in the Transportation and Infrastructure Committee, one 
thing that the industry has admired, maritime is no longer seen 
as a stepchild when it comes to the important aspect of the 
industry, be it the FMC, be it MarAd, or the Coast Guard.
    So with that context in mind, for me, it's challenging for 
a small, independent agency, and I'm thinking of the current 
119 people we have in this agency, the authorized requests in 
terms of the FTE is 126, but because of retirements and people 
who had left the agency, we're down to 119. We haven't been 
able to backfill. And I will represent to this subcommittee 
that as I answer this question, I'm thinking of the 119 people 
who are there right now. They are dedicated and work hard.
    And I think if you inquire of our staff, from what I hear, 
they're a little concerned about the Chairman, who is asking 
the line, rank-and-file staff to go beyond their expectations. 
And that's just my point, we are very lean, and on the other 
hand, we are part of that $930 billion of ocean transportation 
commerce. Congresswoman, your district includes the largest 
port complex coverage in the Nation and has represented your 
district in an excellent fashion, and you recognize the growth 
of containerization.
    Last month, the President's Export Council, Secretary of 
Commerce reported that since 2009 to the present there has been 
a 30,000 increase in small businesses in the import-export 
industry. Secretary Vilsack, Agriculture Secretary reported 
that in the last 5 years, the growth in agriculture exports has 
far exceeded numbers beyond any time in our history. Coming 
from California, it's fair to say that California has a great 
interest in agricultural exports.
    So in that context, the challenges and mandate of the FMC 
pursuant to the Shipping Act, post-OSRA, has been extremely 
challenging. Now, I will say, lastly, I thoroughly respect the 
subcommittee in terms of the funding levels and the challenges 
that you have, but I'm here and would be remiss not to continue 
to give the message of the great job this agency does with a 
limited staff, and emphasize the $25 million is just to 
survive. There's no fat in that budget.
    Ms. Hahn. Thank you. Could I just have a couple more 
seconds, Mr. Chairman? Thanks.
    I just--when I slipped away briefly here, I just went 
upstairs where the Panel on 21st-Century Freight 
Transportation, which I'm one of 11 Members of Congress that 
has been on for the last 6 months, and we just presented our 
recommendations for a national freight policy, first time that 
we've actually ever said we should have a national freight 
policy, and these were our recommendations. Honorable Cordero, 
if your agency was to suffer more reductions, how would that 
impact your ability to oversee or make sure that the freight 
industry in this country was operating properly?
    Mr. Cordero. Well, for one, there's been a couple of good 
questions presented to me in some of those areas. For example, 
the filing and the monitoring of agreements like the P3 
alliance, an agreement that many people in the industry see it 
as a game changer.
    Ms. Hahn. Which was one of our recommendations, by the way, 
that we have more public-private partnerships.
    Mr. Cordero. Right, see it as a game changer, and thus is 
paramount that this agency continue to do the job that, in 
fact, it was mandated to do when formed in 1961. And when you 
look from that perspective of what the FMC was about in 1961, 
let us reorganize--in 1961 containerization as we know it today 
was nonexistent.
    Today in the 21st century, the challenges that the FMC has 
before it given containerization, to address the cargo demands, 
the services--in the case of Long Beach, Los Angeles, I spoke 
last week--2 weeks ago at the WESCCON Conference. And I was 
really taken by the number of positive commentary I had from 
people, from the OTI industry that I spoke before who 
acknowledge the great service that the FMC has given by way of 
our area representatives at the major port complexes, be it New 
York, be it Florida, be it Long Beach, Los Angeles.
    As I mentioned in my testimony, right now we don't have 
anybody in Houston, one of our Nation's great bulk ports. And 
we don't have one right now because we are unable to backfill 
that position given the concern about the pending budget.
    Ms. Hahn. Thank you very much for the extra time, and I 
know--I just want to go on the record saying at a time when the 
maritime industry--we're finally getting it in terms of what 
that means to this country's economic development, to job 
creation. I for one would not be in favor of cutting this 
agency from what the President has asked, which is still sort 
of bare bones, but thank you for the extra time.
    Mr. Hunter. Thank the gentle lady. I think the contrast 
here, too, Mr. Cordero--and if Mr. Jaenichen was here from the 
Maritime Administration, you would have three folks, including 
the admiral whose job it is to try encourage the maritime 
industry, encourage maritime strategy, encourage trade, 
encourage best practices on ships.
    And then Mr. Shapiro and Mr. Rosekind, I guess your job is 
to make it as onerous as possible on these gentlemen sitting 
over here. And that's what it looks like to me, and you just 
take the Clean Water Act for example, it went about 30 years 
not referring to boats, right? The Clean Water Act until, what, 
just this last decade did not refer to ships at all. It was 
about having a plant by a river or something like that.
    And then all of a sudden, it seems like the EPA ran out of 
things to do and regulate and so it's now going to refer to 
ships, and like Mr. LoBiondo was talking about, you're going to 
regulate the rain runoff on small fishing vessels. It just 
seems a little bit crazy to me.
    Mr. Shapiro. Could I respond, Mr. Chairman?
    Mr. Hunter. Yes, sir.
    Mr. Shapiro. Well, the history of this particular permit is 
such that EPA initially determined not to hold vessels subject 
to permitting requirements under the Clean Water Act. That 
decision was challenged and ultimately through a court process 
it was decided that given the language of the Clean Water Act, 
discharges from vessels had to be subject for permitting under 
the Clean Water Act absent a moratorium such as Congress passed 
or an extension or some other act.
    So we were bound at that point to issue permits to cover 
vessels, to address any environmental concerns, but most 
importantly, without an applicable permit, discharges from the 
vessel would not be permitted, would be a violation of the 
Clean Water Act. So in crafting our Vessel General Permit and 
our proposed Small Vessel General Permit, we had to be fairly 
comprehensive and inclusive in order to allow vessels to 
operate legally under the requirements of the Clean Water Act.
    Any individual discharge you might identify air 
conditioning condensate or rainwater as specific examples, but 
the broader implication of the court's decision and being 
subject to the Clean Water Act and its permitting requirements 
is that all discharges had to be covered by a permit in order 
to permit the vessels to operate legally without threat of 
penalty or citizen suit.
    So I just want to make it clear in response to your comment 
as well as Congressman LoBiondo's comments that although you 
could select individual discharges and say why is EPA 
regulating this, I think the broader answer is it's part of a 
comprehensive scheme under the Clean Water Act that requires us 
to have permit applicability for all discharges whether it's a 
wastewater treatment plant or an industrial facility or now 
because of the court decisions, vessels that operate in U.S. 
waters, you have to have a permit that covers those discharges.
    In crafting our requirements, though, we have tried to be 
very sensitive to the nature of the discharges, the nature of 
the vessels, especially in the case of small vessels. If you 
look at what the requirements actually are, they're really good 
housekeeping practices for the most part that says: Don't make 
it easy for stuff to get washed off the deck; check for leaks 
of oil; where applicable, use biodegradable or otherwise 
nontoxic lubricants.
    So they're things we think are good practices that are, as 
cost estimates earlier indicated, are not inordinate to apply 
and that do, based on our analyses, provide environmental 
protection. So there are clearly benefits of this regulatory 
scheme in our view, and water quality is protected.
    Mr. Hunter. So give me an example, Mr. Shapiro. Just one 
last--so give me an example. Say that the Coast Guard pulls my 
boat over, what are they looking for? Say it's raining. That's 
what--an actual example. So it's raining. What is the Coast 
Guard look for in order to allow me to not get penalized?
    Mr. Shapiro. Well, what the Coast Guard would be looking 
for--and I'll allow Rear Admiral Kenney, obviously, to weigh in 
here--but whether the requirements are in place. So in the case 
of a small vessel, should that be the situation, really they 
would be checking to see whether you or whoever is 
operationally in charge of the vessel conducted checks 
periodically--four times over the course of the year--and 
certified that those examinations----
    Mr. Hunter. So is that paperwork? They would look to see if 
I had checked off and done the inspections?
    Mr. Shapiro. Yes. This is actually the form that would be 
on the vessel. It would not have to be submitted to EPA 
separately. It would be something that would be maintained on--
--
    Mr. Hunter. But say that again. I would submit to the EPA--
--
    Mr. Shapiro. No, you would not have to submit that to EPA. 
Under the proposed Small Vessel General Permit, this would be 
something that you would keep on the vessel that would be 
available should the Coast Guard be on your vessel, and it 
would essentially say you've checked for these commonsense 
procedures to make sure they're in place, and to the extent 
that you've identified some problems or issues, you've 
addressed them on the vessel.
    Mr. Hunter. Thank you very much for your clarification, and 
thank all of you, too, for your service and for doing what you 
do.
    Ms. Frankel is recognized.
    Ms. Frankel. Thank you very much, and thank you for your 
service. My father was a member of the Coast Guard. So I have a 
little different area I want to cover. I have a constituent who 
called my office and came to see me that was a very proud 
recruit, who was a recruit for the Coast Guard. And during her 
period of recruit--of boot camp, she began to be sexually 
harassed by her commander. Because she feared reporting it, she 
didn't know she could be transferred away, she quit. She later 
learned that another recruit actually was sexually assaulted by 
the same commander. He was eventually prosecuted.
    So that's a real life story. Some of this issue of sexual 
assault and harassment has come up in all branches of the 
Service. And incidentally my son was a Marine, too, so I have 
the highest respect for the people in the Service. I want to 
make that clear.
    But there was--in 2011, the Congress enacted an important 
change in the Department of Defense sexual assault policy when 
it gave victims of sexual assault the ability to place an 
expedited request for transfer away from the location of his or 
her attacker. This was a good change. Because the Coast Guard 
has--under the Department of Homeland Security and not the 
Department of Defense, there was some confusion as to whether 
or not this change applied to the Coast Guard.
    The Coast Guard commandant, to his credit, in March issued 
and ordered that the provision would apply, but there are some 
folks who are concerned that that order could be repealed, and 
we'd rather have a statute in law that binds future Coast Guard 
commandants. There is a bipartisan bill by Representative Mike 
Turner and Niki Tsongas called the Coast Guard STRONG Act, 
which would require the Coast Guard to grant victims of sexual 
assault the ability to place an expedited request to be 
transferred away from the location of his or her attacker.
    I guess I'm going to come to Admiral Kenney and just ask 
whether or not that particular provision--how you would feel 
about that being added to a reauthorization act here.
    Admiral Kenney. Thank you, Congresswoman Frankel and thank 
you for your service and for your father and your son as well. 
You've raised a very important issue, and as the Coast Guard is 
really committed to eliminating sexual assault and sexual 
harassment from our ranks, it is--quite frankly, it is a cancer 
on our Service that we need to eliminate; not just control, but 
eliminate. And when I hear stories of--like those of your 
constituent--and I am familiar with that case and Cape May, and 
that company commander was brought to justice through the 
Uniform Code of Military Justice in a court martial 
prosecution.
    But there is just no place for sexual assault and sexual 
harassment in our Service. Not only does it destroy the 
victims, as you alluded to in your statement, but it also has a 
tremendous impact on mission readiness. Coast Guard men and 
women put their lives on the line every day, and in order to 
conduct the missions that we conduct and do it safely and 
effectively, you have to trust the people that you're with, and 
sexual assault and sexual harassment destroy those bonds of 
trust and mutual respect that are so critical to supporting our 
people and effectively executing our missions.
    As you mentioned, ma'am, the Coast Guard has taken onboard 
the STRONG Act as it was passed in the National Defense 
Authorization Act, and we have implemented it. Thus, we would 
have no objection to the STRONG Act being enacted. We're doing 
it now. We intend to continue doing it. Of course, we leave the 
option of whether or not the victim desires to be transferred. 
Oftentimes, the victim's support network is with the unit. We 
may want to have the perpetrator--the alleged perpetrator be 
transferred in order to get that separation. But to short-
answer your question, ma'am, there's no objection.
    Ms. Frankel. Thanks. Mr. Chairman, I have 30 more seconds 
to--thank you.
    First of all, thank you for your answer. I think it's a 
very good answer.
    And Mr. Chairman, I would request that as this committee 
considers this reauthorization bill, that we put a provision 
adopting some of this language in that bill because I think we 
can all agree that no person who signs up to risk their life, 
their well-being for our freedom should be subject to any type 
of sexual harassment or assault, and I hope we could all work 
together on this particular issue. And I thank you.
    Thank you, Mr. Chair, for the extra time.
    Mr. Hunter. Thank the gentle lady. I know she has a great 
idea, and we applaud you for taking it on voluntarily after 
passing it for the four military services out of the Armed 
Services Committee. So good on you, Admiral, and the Coast 
Guard, and we ought to make it statutory. And if you're doing 
it anyway, we ought to just make it legal.
    All right. Well, if there are no more questions--we do have 
some more, so Mr. Garamendi is recognized.
    Mr. Garamendi. A couple of unanimous consent requests. The 
first one dealing with a letter into the record from Deborah 
Hersman, Chairman of the National Transportation Safety Board 
to myself and Mr. Cummings. And a second letter from 
Earthjustice, the American Association for Justice, and others, 
that lists concerns with expanding responder immunity under the 
oil pollution act. I would like those two letters entered into 
the record.
    Mr. Hunter. Without objection.
    [The requested letters follow:]

    [GRAPHIC] [TIFF OMITTED] T5300.008
    
    [GRAPHIC] [TIFF OMITTED] T5300.009
    
    [GRAPHIC] [TIFF OMITTED] T5300.010
    
    [GRAPHIC] [TIFF OMITTED] T5300.011
    
    [GRAPHIC] [TIFF OMITTED] T5300.012
    
    [GRAPHIC] [TIFF OMITTED] T5300.013
    
    Mr. Garamendi. And just--this will open up another series 
of questions, which I don't think we have time to get to right 
now, but this has to do with the--Mr. Rosekind, your expertise 
on sleep deprivation as it relates to the worthiness of the 
committee to address issues beyond 1 hour and 30 minutes.
    On a more serious note, however, there is an ongoing issue 
of how we ought to deal with sleep deprivation, six on, six 
off; eight on, eight off. You have some testimony in your 
written proposal. I would appreciate additional testimony, 
additional writing and--on that debate back and forth. So if 
you could provide that, I'd like to have that into the record 
at sometime in the near future. Thank you.
    Mr. Hunter. There are no more further questions. I thank 
the witnesses for their testimony. And the letters are entered 
with no objection, something I said. The subcommittee stands 
adjourned.
    [Whereupon, at 11:55 a.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
